No. 21-

 

In THE
Supreme Court of the United States

WILLIE H. GOFFNEY, JR., M.D., ETAL.,

Petitioners,
v.

XAVIER BECERRA, Secretary of the United States
Department of Health and Human Services, in his
official capacity,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,687 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 6, 2021.

Colin Case Hogan

Wilson-Epes Printing Co., Inc.
